U.S. Department of Agriculture
 Office of Inspector General
       Western Region
         Audit Report



     FARM SERVICE AGENCY
 DISASTER PAYMENTS TO PRUNE
  PRODUCERS IN CALIFORNIA –
         PRODUCER B




              Report No.
              03006-7-SF
              July 2001
                      UNITED STATES DEPARTMENT OF AGRICULTURE
                                         OFFICE OF INSPECTOR GENERAL
                                                  Western Region
                                           75 Hawthorne Street, Suite 200
                                           San Francisco, California 94105
                                       TEL: 415-744-2859 FAX: 415-744-2871



DATE:             July 26, 2001

REPLY TO
ATTN OF:          03006-7-SF

SUBJECT:          Disaster Payments to Prune Producers in California –
                  Producer B

TO:               John G. Smythe
                  State Executive Director
                  California State Office
                  Farm Service Agency

ATTN:             Jeff Yasui
                  Program Specialist

This report presents the results of our audit of Farm Service Agency (FSA) disaster
payments made to a prune producer in California. Regulatory provisions allowed
producers to receive both FSA disaster payments and RMA indemnities for losses
sustained during crop years 1998 and 1999. Initially, we conducted an audit of Risk
Management Agency (RMA) prune indemnity payments made to six producers. Of those
six, we determined that five had also received disaster payments.

This report covers one of the five producers, whom we are identifying as “producer B.”
In our audit of RMA indemnity payments made to producer B (audit no. 05099-05-SF),
we identified erroneous data that had been forwarded to FSA from RMA, resulting in an
overpayment of $521 for crop year 1998.

BACKGROUND

FSA administers farm assistance programs through about 2,500 service centers,
referred to as county offices. One of these programs, the 1998 Crop Loss Disaster
Assistance Program (CLDAP), provided financial assistance to eligible producers for
losses suffered due to disasters or weather. Producers were eligible to receive disaster
benefits if they suffered crop losses in excess of 35 percent of expected production.1
OBJECTIVE


1   Expected production for a unit is the historic yield multiplied by the number of planted acres of the crop.


    USDA/OIG-A/03006-7-SF                                                                           Page 2
Our objective was to determine if the information on the producer’s claim was consistent
between RMA and FSA.

SCOPE

During our audit of RMA indemnity payments, we found discrepancies in the production
reported by 6 of the 20 producers we selected for review. Because regulatory provisions
allow producers to receive both RMA indemnity payments and FSA disaster payments
during crop years2 1998 and 1999, we reviewed disaster files and found that five of the six
producers had also applied for disaster benefits. Producer B is one of the producers who
received both RMA and FSA payments.

Audit fieldwork was performed from April through August 2000 at RMA’s Davis Regional
Office located in Davis, California; the Rain and Hail Insurance Service Inc. office
(insurance provider) located in Fresno, California; and the Sutter/Yuba FSA County
Office located in Yuba City, California.

This audit was performed in accordance with generally accepted government auditing
standards.

METHODOLOGY

To accomplish our objectives and support our findings, we performed the following
procedures:

      •   We compared the producer’s disaster application at the Sutter/Yuba FSA County
          Office with loss records submitted to the insurance provider.

      •   We interviewed RMA and FSA officials, producer B, handlers, and the insurance
          provider to resolve discrepancies.

FINDING

In calculating producer B’s disaster benefits for crop year 1998, FSA used an incorrect unit
structure, an incorrect yield, and overstated acreage amounts. This occurred because
FSA relied on data submitted by RMA, which was in error because (1) two optional units
had been established based on erroneous data and (2) gross acreage was used instead
of the net cropland amount. As a result, producer B received an overpayment of $521 in
1998 CLDAP payments.

The FSA Disaster Assistance Program handbook states, “for insured crops, units will be
downloaded from RMA. CLDAP will use the insured producer’s existing unit structure


2
    A crop year is designated by the calendar year in which the insured crop is normally harvested.


    USDA/OIG-A/03006-7-SF                                                                        Page 2
which may include optional units. [Furthermore,] APH yields for insured crops will
be…based on RMA data.”3

For 1998, we determined that total production was correctly accounted for. However,
RMA supplied FSA with an incorrect unit structure to determine 1998 CLDAP payments for
producer B. This occurred because the insurance provider initially determined that the
producer had two optional units (102 and 103), which it later concluded should have been
one unit. The insurance provider corrected its records by combining the units into one.

In addition, RMA supplied FSA with an acreage amount that was overstated by 5.2 acres.
This occurred because the insurance provider incorrectly used gross acreage (75 acres)
instead of the total cropland when determining the insured acreage for units 102 and 103.
At our request, FSA measured the cropland and concluded that the acreage should have
been 69.8 acres. The insurance provider agreed that 69.8 acres was correct and that the
provider had overstated the acreage.        Furthermore, incorrect yield amounts were
calculated based on the incorrect unit structure and acreage amounts and were
subsequently used in determining the 1998 CLDAP payments. As a result of these errors,
producer B received an overpayment of $521 in 1998 CLDAP payments (see exhibits A
and B).

Recommendation No. 1:

Recover the overpayment of $521 for units 102 and 103 from producer B.

FSA Response:

The California Office has reviewed the finding for producer B and concurs with the finding.
The county office will be notified to proceed with collection activities. Collection activity
will be based on corrective action taken by RMA or the crop insurance company.

OIG Position:

To accept management decision, we will need documentation that producer B was billed
for $521.

CONCLUSIONS AND REQUIRED AGENCY ACTIONS:

Your July 23, 2001, response to the draft report has been included as exhibit C of this
report. In accordance with Departmental Regulation 1720-1, we will be able to accept
your management decision on Recommendation No. 1 when you provide us with
documentation that the producer was billed for $ 521. Please furnish a reply within 60
days describing the corrective action taken or planned and the timeframes for
implementation of our recommendation. Please note that the regulation requires a

3
    1-DAP, Amend. 12, paragraph 1020(G) dated 3/24/99 and Amend. 9, paragraph 1042(A), dated 2-9-99.


    USDA/OIG-A/03006-7-SF                                                                 Page 4
management decision to be reached within a maximum of 6 months from report issuance.
Follow your internal agency procedures in forwarding final action correspondence to the
Office of the Chief Financial Officer.

We appreciate the assistance and cooperation of your staff during this review.


/s/

SAM W. CURRIE
Regional Inspector General
  for Audit




 USDA/OIG-A/03006-7-SF                                                           Page 4
 EXHIBIT A – SUMMARY OF MONETARY RESULTS


  RECOMMENDATION
                           DESCRIPTION              AMOUNT          CATEGORY
      NUMBER


                   The producers CLDAP benefit
         1         was calculated using erroneous    $ 521   Questioned Costs –
                   data.                                     Recovery Recommended


  TOTAL MONETARY RESULTS                             $ 521




USDA/OIG-A/03006-7-SF                                                       Page 5
EXHIBIT B – CLAIM COMPUTATION WORKSHEET



     -A-         -B-          -C-         -D-            -E-          -F-      -G-      -H-         -I-              -J-
                                      (B x C x .65)                 (D - E)                     (F x G x H)       (I x .849)
    Unit                                Disaster        Actual     Production Payment Payment   Projected     Payment
    No.     Acreage           Yield      Level        Production     Loss     Rate4   Level5    Payment6          Amount
Disaster Calculation Per FSA:
    102                47.0   2.3        70.27          17.0         53.27    $630      .65     $   21,814    $      18,520
    103                28.0   3.7        67.34           8.1         59.24    $630      .65     $   24,259    $      20,596
    FSA Totals         75.0                             25.1                                                  $      39,116
Disaster Calculation Per Audit:
    1027               69.8   3.0       136.11          25.1        111.01    $630      .65     $   45,459    $      38,595
Differences:            5.2                                                                                   $            521




4 The payment rate for dehydrated prunes as stated on the FSA disaster crop tables for 1998 and
1999 was $630.
5 The payment level for insured and noninsurable crops was 65 percent; uninsured crops had a

payment level of 60 percent.
6 Because a specific amount of money was available, national payment factors were established to

ensure that disaster-funding allocations were not exceeded. Each producer’s projected payments
were reduced by a national payment factor of .849 when computing the actual payment amount, see
column J.
7 RMA forwarded an incorrect unit structure reflecting two units to FSA (units 102 and 103) that was

used to calculate the 1998 disaster payment. Subsequently, the insurance provider discovered the error
and corrected the unit structure by combining units 102 and 103 into one unit (102).



    USDA/OIG-A/03006-7-SF                                                                                     Page 6
EXHIBIT C – FSA’S RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/03006-7-SF                            Page 7
